tv

20

a '

OS

Docket No.

IN THE
SUPREME COURT OF THE UNITED STATES

Tim Sundy
Petitioner

FILED
AU(3 2 6 2020

vs.

OFFICE OF THE CLERK
SUPREME COURT. u.S

FRIENDSHIP PAVILION ACQUISITION CO. LLC
Charles Baker, Clerk of the Superior Cou|f
Respondents
j§

PETITION FOR A WRIT OF CERTIORARI
to the Supreme Court of Georgia from a determination in case S20M1044
TIM SUNDY
227 Sandy Springs Place, Ste. D-465
Sandy Springs, GA 30328
email: dstshall@earthlink.net
Pro se Petitioner
with motion and affidavit accompanying
for permission to proceed in forma pauperis

\o

Questions presented for review

1) Given that Art. I, Sec. II, Par. I, of the Constitution of Georgia of 1983 states, (a)
"Public officers are the trustees and servants of the people and are at all times
amenable to them," and OCGA § 9-2-3(b) states that "For every right there shall
be a remedy...", does the refusal of Georgia courts to provide a Georgia litigant
any “plain, speedy, and efficient” remedy to officers of the Georgia courts
tampering with the court record in the litigant’s cases, while also denying the
litigant any declaration that the litigant is immune from criminal activity,
impose unusual hardship and deprive the litigant of protections guaranteed by
the First and Fourteenth Amendments of the U.S. Constitution?

2) Whether the retaliatory pattern and practice of Georgia court officers removing
and/or withholding documents from the court record of an active civil case, or
tampering with documents in the court record of an active civil case, to deprive a
litigant of the consideration of all relevant factors and subject a litigant to clear
errors of judgment, amounts to inconsistent due process and deprives the
litigant of protections guaranteed by the First and Fourteenth Amendments of
the U.S. Constitution?

i

A list of all parties to the proceeding

In compliance with Rule 12.6 Rules of the Supreme Court of the United
States, all parties listed below have an interest in the outcome of the judgment
sought to be reviewed and promoted the judgment via inconsistent due process
and/or Fraud upon the court.
Charles Baker; Clerk of the Superior Court of Hall County
Friendship Pavilion Acquisition Company, LLC; a Delaware corporation

ii

Corporate Disclosure Statement
The Petitioner is not a corporation.

iii

List of All Proceedings
Pursuant to Rule 14(b)(iii)- Rules of the Supreme Court of the United States, the
list in State and Federal trial and appellate courts, including proceedings in this
Court, that are directly related to the case and the Judgment sought to be reviewed
in this Court as follows:
Cases in the State Magistrate Court of Hall County Georgia:
Case MV2015150183- Friendship Pavilion Acquisition Company, LLC. v.
Mediterranean Dining Group, affidavit for summons of dispossessory, filed 9 June
2015 and transferred to Superior Court of Hall County (“HCSC”) on 2 July 2015 as
HCSC case 2015CV1366.
Cases in the Superior Court of Hall County Georgia:
Case 2015CV1366- Friendship Pavilion Acquisition Company, LLC. v.
Mediterranean Dining Group, Defendant,

and Tim Sundy and David Sundy,

Intervenor Defendants and Third-party Plaintiffs vs Michael Weinstein, ARSENAL
REAL

ESTATE FUND II-IDF, L.P.; Thomas Ling, Gary Picone, Third-Party

Defendants. Judgment entered December 3, 2016 and December 6, 2016
Case 2016CV0982 -Tim Sundy v. C. Andrew Fuller, et al., a Brown v. Johnson,
251 Ga. 436 (Ga.1983) mandamus action. Judgment entered August 22, 2018.
Case 2017CV0031 -David Sundy v. Charles Baker, et al., a Brown v. Johnson,
251 Ga. 436 (Ga.1983) mandamus action. Judgment entered April 3, 2017.
Case 2017CV1125J Charles Baker v. David Sundy and Tim Sundy. Judgment
entered July 10, 2018
Case 2018CV00502 -In re: David Sundy, Still Pending.
iv

Cases in the Georgia Court of Appeals:
Case Number:
Style:

A17D0476 (Docket Date: May 31,2017)
DAVID SUNDY v. MARTHA C. CHRISTIAN, JUDGE
ET AL.
Denied 06/21/2017
COA Status:
Trial Court Case #: 2015CV1366
Case Number:
Style:

A17D0476 (Docket Date: May 31,2017)
DAVID SUNDY v. MARTHA C. CHRISTIAN, JUDGE
ET AL.
COA Status:
Granted 06/21/2017
Trial Court Case #: 2017CV31A
Case Number:
Style:

A17D0525 (Docket Date: June 19,2017)
DAVID SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.
Dismissed 07/17/20171
COA Status:
Trial Court Case #: 2015CV1366
Case Number:
Style:
COA Status:
Trial Court Case #:

A18A0170 (Docket Date: August 14,2017)
DAVID SUNDY v. MARTHA CHRISTIAN ET AL.
Lower Court Affirmed 03/28/2018
2017CV000031

Case Number:
Style:

A18A0290 (Docket Date: September 13,2017)
TIM SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.
Dismissed 10/03/2017
COA Status:
Trial Court Case #: 2015CV1366
Case Number:
Style:

A18D0215 (Docket Date: November 29,2017)
TIM SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.
COA Status:
Dismissed 12/28/2017
Trial Court Case #: 2015CV1366
Case Number:
Style:

A19D0108 (Docket Date: September 21,2018)
TIM SUNDY v. FRIENDSHIP PAVILION
ACQUISITION CO., ET AL.
COA Status:
Denied 10/19/20181
Trial Court Case #: 2016CV982
v

A19D0345 (Docket Date: February 15,2019)
TIM SUNDY v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC
COA Status:
Dismissed 03/15/2019
Trial Court Case #: 2015CV1366
Case Number:
Style:

Case Number:
Style:
COA Status:
Trial Court Case #:

A19E0011 (Docket Date: September 19,2018)
DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2017CV1125

Case Number:
Style:
COA Status:
Trial Court Case #:

A19E0011 (Docket Date: September 19,2018)
DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2016CV982

Case Number:
Style:
COA Status:
Trial Court Case #:

A19E0011 (Docket Date: September 19,2018)
DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2015CV1366

Case Number:
Style:
COA Status:
Trial Court Case #

A19E0011 (Docket Date: September 19,2018)
DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2018CV502

Case Number:
Style:

A20D0016 (Docket Date: July 29,2019)
TIM SUNDY v. FRIENDSHIP PAVILION
ACQUISITIONS CO., LLC et al.
COA Status:
Dismissed 08/27/2019
Trial Court Case #: 2015CV1366
Case Number:
Style:

A20E0037 (Docket Date: March 13,2020)
TIM SUNDY v. FRIENDSHIP PAVILLION
ACQUISITIONS LLC et al.
COA Status:
Denied 03/13/2020
Trial Court Case # 2015CV1366
A20D0398 (Docket Date: June 10,2020)
TIM SUNDY v. FRIENDSHIP PAVILLION
ACQUISITIONS LLC et al.
COA Status:
Denied 07/07/2020
Trial Court Case # 2015CV1366
Case Number:
Style:

vi

Cases in the Supreme Court of Georgia:
Case Number:
Style:
GSUP Status:
Trial Court Case #

S17Q1606 (Docket Date: May 10, 2017)
SUNDY v. BAKER et al.
Dismissed 05/30/2017 Reconsid. Denied: 06/30/2017
2015CV1366

Case Number:
Style:

S18C0377 (Docket Date: May 10, 2017)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 05/30/2017
Trial Court Case # 2015CV1366
Case Number:
Style:

S18C0475 (Docket Date: November 13, 2017)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 05/07/2018
Trial Court Case # 2015CV1366
Case Number:
Style:

S18C0710 (Docket Date: January 19, 2018)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 05/07/2018
Trial Court Case # 2015CV1366
Case Number:
Style:

S18C0395 (Docket Date: November 8, 2018)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 06/03/2019; Recons. Denied 07/01/2019
Trial Court Case # 2016CV982
Case Number:
Style:

S19D0602 (Docket Date: January 2, 2019)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Transferred to COA 01/31/3019
Trial Court Case # 2015CV1366
Case Number:
Style:

S19D0838 (Docket Date: February 25, 2019)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Transferred to COA 03/20/2019
Trial Court Case # 2015CV1366
vii

Case Number:
Style:

S18C0395 (Docket Date: November 8, 2018)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 06/03/2019; Recons. Denied 07/01/2019
Trial Court Case # 2016CV982
Case Number:
Style:

S18C0943 (Docket Date: March 20, 2019)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 11/04/2019
Trial Court Case # 2015CV1366
Case Number:
S19Q1351 (Docket Date: June 13, 2019)
Style:
SUNDY v. CHRISTIAN et al.
GSUP Status:
Dismissed 08/05/2019; Recons. Denied 08/20/2019
Trial Court Case #
Case Number:
Style:
GSUP Status:
Trial Court Case #

S20M1044 (Docket Date: March 25, 2020)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
Denied 03/31/2020

Case Number:
Style:

S20C1075 (Docket Date: April 2, 2020)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
pending
Trial Court Case # 2015CV1366
Case Number:
Style:

S21C0007 (Docket Date: July 30, 2020)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
pending
GSUP Status:
Trial Court Case # 2015CV1366
Cases in the U.S. District Court - Northern District of Georgia:
Case Number:

2:15-cv-00149-RWS (Docket Date: July 10,2015)
Style:
FRIENDSHIP PAVILLION ACQUISITION LLC v.
MEDITERRANEAN DINING et al.
USDC Status:
Remanded to Hall County Superior Court 12/04/2015
Trial Court Case # 2015CV1366
viii

Case Number:
Style:

2:16-cv-00123-WCO (Docket Date: June 14, 2016)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
USDC Status:
Remanded to Hall County Superior Court 08/31/2016
Trial Court Case # 2016CV982
Case Number:
Style:
USDC Status:
Trial Court Case #

2:18-cv-0112-SCJ (Docket Date: July 10, 2018)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Complaint Dismissed 03/12/2019

Cases in the 11th Circuit USCA
Case Number:
Style:

19-10183 (Docket Date: January 16, 2019)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Sundy’s mandamus petition requesting missing
documents be restored to 2:18-cv-0112-SCJ
USDC Status:
Denied (most documents restored by SCJ prior to USCA
ruling)
Trial Court Case # 2:18-cv-0112-SCJ
Case Number:
Style:

19-10445 (Docket Date: April 11, 2019)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Sundy’s injunctive petition regarding documents
missing from 2:18-cv-0112-SCJ
USDC Status:
Denied (most documents restored by SCJ prior to USCA
ruling)
Trial Court Case # 2:18-cv-Ol 12-SCJ
Case Number:
Style:

19-11391 (Docket Date: February 4, 2019)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Sundy’s appeal of 2:18-cv-Ol 12-SCJ
USDC Status:
Dismissed. 03/13/2020
Trial Court Case # 2:18-cv-Ol 12-SCJ

ix

Cases in the Supreme Court of the United States:
Case 20-5401- Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Co., et al,
case still pending.
Case 19-8492- In re: Tim Sundy, pending.
Case 19-8491- In re: Tim Sundy, pending.
Case 19-7600-Title: Tim Sundy, Petitioner v. Friendship Pavilion Acquisition
Company, LLC, et al.,for writ of certiorari Petition DENIED on April 6, 2020.
Case 19-6694-Tim Sundy, Petitioner v. Martha C. Christian, Judge, et al....for writ
of certiorari Petition DENIED on January 27 2020, Rehearing DENIED on
March 23 2020.
Case 19-6821-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Co., et
al....for writ of certiorari Petition DENIED on Feb 24 2020, Rehearing
DENIED on March 23 2020.
Case 19-5506-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al

for writ of certiorari Petition DENIED on Feb 24, 2020,

Rehearing DENIED on March 23 2020.

Table of contents
QUESTION PRESENTED...............................

i

PARTIES TO THE PROCEEDING BELOW

11

CORPORATE DISCLOSURE STATEMENT

iii

LIST OF ALL PROCEEDINGS

iv

TABLE OF CONTENTS

xi

TABLE OF AUTHORITIES

xiii

PETITON FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW,

1

STATEMENT OF JURISDICTION

1

RELEVANT CONSTITUTIONAL PROVISIONS

2

STATUTE INVOLVED

2

INTRODUCTION

3

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE PETITION
A. Petitioner is denied access to the courts

11
11

B. Georgia Courts have nullified the efficacy of extraordinary writs.... 14
C Petitioner has no “plain, speedy and efficient” remedy
CONCLUSION

16
21

Appendixes
March 31, 2020-ORDER in S20M1044 DENYING .motion

A001

July 10, 2018-Fuller's injunctive ORDER..............................

A002

November 26, 2018-HCSC Hand written Order.....................

A004

March 2, 2020 HCSC Docket sheet, first and last pages only
The 21 February 2020 Standing Objection is missing

A005

March 9, 2020 HCSC Docket sheet, first and third pages only
The 21 February 2020 Standing Objection is now present

A007

xi

Table of cited authorities
Cases

BE &K Const. Co. v. NLRB, 536 U.S. 516, 524-25, (2002)

13

Bertulli v. Independent Ass 'n of Continental Pilots, 242 F.3d 290, 295
(5th Cir. 2001)

23

Board of Regents v. Roth, 408 U.S. 564, 92 S.Ct. 2701, 2708-09, 33
L.Ed.2d 548 (1972)

4

Bounds v. Smith, 430 U.S. 817, 97 S.Ct. 1495, 52 L.Ed.2d 72 (1977)

3

Boyd v. United States, 116 U.S. 616, 635 (1886)

18

Carey v. Piphus, 435 U.S. 247. 266. 98 S.Ct. 1042. 55 L.Ed.2d 252 (1978)

24

Chambers v. Baltimore Ohio Railroad, 207 U.S. 142, 28 S.Ct. 34, 52 L.Ed

4

Christopher v. Harbury, 536 U.S. 403, 415 (2002)

14

Collier v. State, 834 S.E.2d 769 (Ga. 2019)

8

Crews v. Petrosky, 509 F. Supp.1199, 1204 n. 10 (W.D.Pa. 1981)

4

Davis v. Phoebe Putney Health Systems, 280 Ga. App. 505, 506-507 (1)
(634 SE2d 452) (2006)

10

Delew v. Wagner, 143 F.3d 1219, 1222 (9th Cir. 1998)

14

Dinwiddie v. Brown, 230 F.2d 465, 469 (5th Cir.)

13

Elrod v. Burns, 421 U.S. 347; 6 S. Ct 2673; 49 L. ed. 2d (1976)

12

Goss v. Lopez, 419 U.S. 565, 95 S.Ct. 729, 735-36, 42 L.Ed.2d 725 (1975)

4

Johnson v. Mayor c. of Carrollton, 249 Ga. 173 (Ga. 1982)

20

Jourdan v. Jabe, 951 F.2d 108, 110 (6th Cir. 1991)

19

xii

Logan v. Zimmerman Brush Co., 455 U.S. 422, 102 S.Ct. 1148, 1155,
71 L.Ed.2d 265 (1982)

4

Luttrell v. U.S., 644 F. 2d 1274, 1276 (9th Cir. 1980)

2

McCray v. Maryland, 456 F.2d 1, 6 (4th Cir. 1972)

4, 19

Mincey v. Head, 206 F.3d 1106, 1125 (11th Cir. 2000)

24

Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100. 109 (2009)

23

Roberts v. First Ga. Community Bank, 335 Ga. App. 228, 230 (1)
(779 SE2d 113) (2015)

10

Robinson v. Glass, 302 Ga. App. 742 (Ga. Ct. App. 2010)

14

Rudolph v. Locke, 594 F.2d 1076, 1078 (5th Cir. 1979)

3

Sigafus v. Brown, 416 F.2d 105 (7th Cir. 1969)

4

Southern Christian Leadership Conference v. Sessions, 56 F.3d 1281 (11th Cir. 1995) 21
U.S. v. Mancilla, 226 Fed. Appx. 945, 946 (11th Cir. 2007)

12

United States v. Carotene Products Co., 304 U.S. 144, 153, n.4, 58 S.Ct.
778, 82 L.Ed. 1234 (1938)

18

Wessel v. City of Albuquerque, 299 F.3d 1186, 1193 (10th Cir. 2002)

24

Withrow v. Larkin, 421 U.S. 35, 47 (1975) (quoting In re Murchison,
21

349 U.S. 133,136 (1955))
Wolff v. McDonnell, 418 U.S. 539, 94 S.Ct. 2963, 41 L.Ed.2d 935 (1974)

25, 26

Statutes

20

18 U.S.C. § 242
18 U.S.C. 1512(c)(l)(2)

3

xiii

28 U.S.C. § 1254(1)

1

28 U.S.C. § 1651

2

O.C.G.A. § 9-2-3(b)

i

O.C.G.A. § 9-6-22

22

O.C.G.A. § 9-11-11.1

4

O.C.G.A. § 15-6-21(b)

28

Other Authorities

Constitution of the State of Georgia, Art. 1, § 2,

1,

Constitution of the State of Georgia, Art. 1 § 1 If 2:
First Amendment, U.S. Constitution

i

2

i, 2, 5, 6, 13, 18
2, 6, 18, 19

Fourth Amendment, U.S. Constitution

5, 6

Fifth Amendment, U.S. Constitution
Fourteenth Amendment, U.S. Constitution

i, 2, 3, 5, 6, 18, 19

Rules

Rule 13.1, Supreme Court of the United States

1

Rule 30.1, Supreme Court of the United States

1

xiv

PETITON FOR A WRIT OF CERTIORARI
Pro se Petitioner Tim Sundy, unwilling to acquiesce to an incomplete record
in the courts below, respectfully petitions for a writ of certiorari to review the
decision of the Supreme Court of Georgia in S20M1044, Sundy’s EMERGENCY

MOTION FOR A SUPERSEDEAS PURSUANT TO RULE 9 OF THE SUPREME
COURT OF GEORGIA. Insofar as applicable, the form of a petition for a writ of
certiorari as prescribed by this Court’s Rule 14 is followed.
I. OPINIONS BELOW
The Supreme Court of Georgia’s opinion in case S20M1044 is unpublished.
Sundy’s Motion was denied on 31 March 2020. See Appendix at A001.
II. STATEMENT OF JURISDICTION
This Court has appellate jurisdiction over the Supreme Court of Georgia’s
denial on 31 March 2020 of Sundy’s Emergency Motion. This Petition in the United
States Supreme Court, being put in U.S. priority mail on 26 August 2020, is timely
under this Court’s MARCH 19, 2020 ORDER on filing deadlines in light of the
ongoing public health concerns relating to COVID-19, as well as Rule 13.1 and Rule
30.1: Rules of the Supreme Court of the United States.
The relief sought in case S20M1044 was an attempt by Sundy to enforce his
right to a complete record in Georgia civil court case 2015CV1366 in Hall County
Superior Court (“HCSC”).
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
Additionally, the Petitioner is attempting to invoke the equity jurisdiction of this
Court. Fraud upon the court confers equitable jurisdiction on a court to set aside a
1

A

judgment where the unsuccessful party has been prevented from exhibiting fully his
case, by fraud or deception practiced on him by his opponent, as by keeping him away
from court. Luttrell v. U.S., 644 F. 2d 1274, 1276 (9th Cir. 1980).
III. RELEVANT CONSTITUTIONAL PROVISIONS
The Fourteenth Amendment to the United States Constitution guarantees
that Petitioner Sundy is immune from criminal activity. The purview of the
Fourteenth Amendment to the United States Constitution is in agreement with the
Constitution of the State of Georgia Art. 1 § 11 2: Protection to person and property;
equal protection.

Protection to person and property is the paramount duty of

government and shall be impartial and complete. No person shall be denied the
equal protection of the laws.
The purview of the First Amendment right to petition for redress of
grievances and access to the court is also implicated, as well as the Fourth
Amendment right to be secure in one’s papers.

Rights and remedies are

inextricably intertwined.
IV. STATUTE INVOLVED
Section 1512(c)(l)(2) of Title 18, added to the United States Code as part of
the Sarbanes-Oxley Act of 2002, documents the criminal nature of tampering with a
court record and states: “(c) Whoever corruptly- (1) alters, destroys, mutilates, or
conceals a record, document, or other object, or attempts to do so, with the intent to
impair the object's integrity or availability for use in an official proceeding...”
Section 1512(f)(1) of Title 18 states that an official proceeding need not be pending
or about to be instituted at the time of the offense.
2

V. INTRODUCTION
Under the U.S. Constitution, the right of access to the courts is guaranteed
and protected from unlawful interference and deprivations by the state. Georgia’s
lower courts and appellate courts have invaded Sundy’s private substantive and
procedural legally protected interests guaranteed by the statutes and constitution of
the United States while requiring ineffectual activity on the part of pro se Sundy.
The principal motivating factor appears to be to cover up the malfeasance and
misfeasance of court officers by denying Sundy his right of access to the courts,
thereby violating Sundy’s constitutional rights under the Fourteenth Amendment.
As has been said, “A mere formal right of access to the courts does not pass
constitutional muster.” Courts have required that the access be "adequate, effective,
and meaningful." Bounds v. Smith, 430 U.S. 817, 97 S.Ct. 1495, 52 L.Ed.2d 72
(1977); see also Rudolph v. Locke, 594 F.2d 1076, 1078 (5th Cir. 1979). Interference
with the right of access to the courts gives rise to a claim for relief under 42 U.S.C. §
1983. Sigafus v. Brown, 416 F.2d 105 (7th Cir. 1969) (destruction by jail guards of
legal papers necessary for appeal supports claim for damages under § 1983);
McCray v. Maryland, 456 F.2d 1, 6 (4th Cir. 1972) ("Of what avail is it to the
individual to arm him with a panoply of constitutional rights if, when he seeks to
vindicate them, the court-room can be hermetically sealed against him by a
functionary who, by refusal or neglect, impedes the filing of his papers?"); Crews v.
Petrosky, 509 F. Supp.1199, 1204 n. 10 (W.D.Pa. 1981). ("An allegation that a clerk
of state court has negligently delayed the filing of a petition for appeal, and that the

3

delay has interfered with an individual's right of access to the courts, may state a
cause of action under 42 U.S.C. § 1983.").
This Court has characterized this right of access in the following terms:
The right to sue and defend in the courts is the alternative of force. In
an organized society it is the right conservative of all other rights, and
lies at the foundation of orderly government. It is one of the highest
and most essential privileges of citizenship, and must be allowed by
each state to the citizens of all other states to the precise extent that it
is allowed to its own citizens. Equality of treatment in this respect is
not left to depend upon comity between the states, but is granted and
protected by the Federal Constitution. Chambers v. Baltimore Ohio
Railroad, 207 U.S. 142, 28 S.Ct. 34, 52 L.Ed.
This Court has also long held that "[t]he hallmark of property ... is an
individual entitlement grounded in state law, which cannot be removed except 'for
cause.’" Logan v. Zimmerman Brush Co., 455 U.S. 422, 102 S.Ct. 1148, 1155, 71
L.Ed.2d 265 (1982). See also Goss v. Lopez, 419 U.S. 565, 95 S.Ct. 729, 735-36, 42
L.Ed.2d 725 (1975); Board of Regents v. Roth, 408 U.S. 564, 92 S.Ct. 2701, 2708-09,
33 L.Ed.2d 548 (1972).

Under O.C.G.A. § 9-11-11.1, Sundy has a property interest

in a complete court record, with the Georgia Legislature declaring that the valid
exercise of the constitutional rights of petition and freedom of speech should not be
chilled through abuse of the judicial process
Court officers of Georgia’s Hall County Superior Court (“HCSC”) have abused
the judicial process by withholding Sundy’s documents from the court record and/or
tampering with Sundy’s documents in the court record of civil action HCSC
2015CV1366, creating an incomplete record that is misleading, false, and which
materially misrepresents facts. The Georgia courts have refused Sundy any “plain,
speedy, and efficient” remedy to the superior court’s tampering with the record and
4

the restraint of Sundy’s liberty, while also depriving Sundy of any declaration that
Sundy is immune from criminal activity as guaranteed by the constitutions of both
the State of Georgia and the United States.

Sundy has been deprived of his

substantive right of access to the courts. Sundy has been deprived of his right to
procedural due process under the First, Fifth and Fourteenth Amendments.
Sundy has also been deprived of any adequate state remedy by Georgia’s appellate
courts, with appellate court clerks going so far as to falsify the appellate record(s) to
predetermine that Sundy’s cause is futile
Petitioner Sundy has a statutory and constitutional right to a complete
record of proceedings in the courts below, as well as consistent due process without
undue interference. Sundy is respectfully seeking that this Court issue a writ of
certiorari to the Supreme Court of Georgia to review the case below so that
Petitioner’s rights may be honored. Such relief is warranted by the extraordinary
nature of this case. Sundy has suffered actual prejudice and irreparable injury as
the result of court officers’ repeated actions of removing and/or withholding Sundy’s
pleadings from the court records, as well as court officers’ statutory violations,
misstatements and misleading statements in lower court documents to commit
fraud upon the court.
VI. STATEMENT OF THE CASE
Petitioner Tim Sundy is not a lawyer but a citizen with the constitutional right
to be secured in his person and papers. Pro se Petitioner Sundy is subject to judges and
clerks of court in Georgia’s appellate courts and Hall County Superior Court (as well
as in the federal court) - in or proximate to Atlanta
5

removing and/or tampering

with papers in the records of civil actions in conflict with the First, Fourth, Fifth, and
Fourteenth Amendments of the U.S. Constitution. Since December 2015, Petitioner
Sundy has been deprived of his civil rights by court officers tampering with the court
record to criminally interfere with Sundy’s access to the court, depriving Sundy of his
right to defend himself against civil liability, and pursue meritorious claims against
billion-dollar corporate entity Friendship Pavilion Acquisition Company Inc. LLC
(“Friendship”) in an in rem proceeding. Because court officers are tampering with the
records in Sundy’s cases, the court records are not complete and do not reflect the proof
of all orders, notices, objections, etc. to the court, causing Petitioner Sundy to be
procedurally deficient or falsely exposing Petitioner to sanctions.
The face of the record in civil case 2015CV1366 in Hall County Superior
Court (“HCSC”) does not plainly reveal error. Hidden from the reviewer is the fact
that Sundy’s December 20, 2016 “joint objection” was removed from the record of
2015CV1366 for 18 months and restored on 10 July 2018.

The order restoring the

joint objection is absent from the record, depriving the court of any evidence that
Sundy’s joint objection was missing and depriving Sundy of appeal of the order.
There is no response in the record to Sundy’s joint objection by the trial court or
adverse parties.
The face of the record does not reveal HCSC mandamus actions 2016CV982
and 2017CV031, initiated by Sundy to force the court to restore the joint objection
to the record.

The face of the record does not reveal the action initiated by

Respondent Clerk of Court Baker, HCSC 2017CV1125, to restore Sundy’s joint
objection after Clerk Baker was dismissed with prejudice from the mandamus
6

action because the mandamus judge said that the court couldn’t find the missing
document in the record. The face of the record does not reveal that Clerk Baker has
continued to delay docketing or withhold Sundy’s documents from HCSC court
records.
The face of the record does not reveal that from March 2018 through July
2018, HCSC subjected Sundy to a retaliatory secret, oral injunctive filing order
whereby Respondent HCSC Clerk Baker refused to accept, or accepted but failed to
file Sundy’s pleadings and documents in violation of Baker’s purely administrative
duties.
The face of the record does not reveal that the same day the Sundys initiated
civil action 2:18-CV-0112 in U.S.D.C. Northern District of Georgia - Gainesville
Division (“USDC”), disqualified HCSC Judge C. Andrew Fuller sua sponte issued a
written, open-ended injunctive filing order A002 whereby, as unlawfully enforced by
the Clerk of Court and Hall County Sheriffs Office, Sundy was refused physical
access to the office of the clerk of court and intimidated by threat of arrest.
The retaliatory, unjustified and unbounded injunctive filing order, although
issued only in HSCS 2016CV0982 without notice to Sundy and with no substantive
findings by any court that Sundy’s pleadings are frivolous or in bad faith, has been
unlawfully applied to the entire Hall County Superior Court system though not filed
in any other case, with the Real Estate Division of the HCSC Clerk’s Office even
refusing to file Sundy’s papers germane to USDC 2:18-CV-0112. The unbounded
injunction infringes on Sundy’s right of access to the courts and has been used by

7

HCSC to repeat an ongoing pattern of material falsity, i.e., concealing the material fact
of Sundy’s documents/pleadings while depriving Sundy of rights under color of law.
Because the injunctive filing order is absent from the record of HCSC
2015CV1366, Sundy can neither appeal it nor provide documentary evidence of
denial of constitutional rights of access, equal protection and due process.

To

prevail on appeal, a defendant “must be able to show reversible error, and he must do
so on the existing record.” Collier v. State, 834 S.E.2d 769 (Ga. 2019). The existing
record is incomplete in 2015CV1366 HCSC as well as every other case in which Sundy
is a party and the filing injunction has been used by HCSC court officers to
strategically deprive Sundy of access to the courts while ensuring that pro se Sundy
is legally disadvantaged. Despite Sundy’s every attempt to remedy the incomplete
record(s), Georgia’s appellate courts have refused to make available a means to
remedy the deprivation.
In November 2018, defying the terms of his own injunctive order A002,
disqualified

Judge

INTERVENORS'

Fuller

STANDING

neither

reviewed

OBJECTIONS

TO

Sundy's

14

November

2018

ALL

VOID

ORDERS

AND

PROCEEDINGS, AND NOTICE TO THE COURT OF PENDING MATTERS IN
FEDERAL COURT (“2018 Objection”) submitted by certified mail, nor did
Respondent Baker file Sundy's 2018 Objection. Instead, two weeks later, by hand
written ORDER stamp-filed in HCSC court on 26 November 2018 at 11:38 am
A004, disqualified judge Christian commanded the Clerk to file Sundy’s 2018
Objection -after a 10:00 am calendar call unconstitutionally held with Sundy’s
2018 Objection missing from the record.
8

On 19 February 2020 pro se Sundy submitted a STANDING OBJECTION in
HCSC 2015CV1366 to a 2 March 2020 hearing via certified mail. To underscore,
because Sundy is prohibited from physically entering the HCSC Clerk’s Office under
threat of arrest, and illegally enjoined from the normal filing of papers by .a
disqualified judge who recused himself three-years prior, Sundy’s STANDING
OBJECTION was submitted by certified mail and was received by the Clerk’s Office
on 21 February 2020.

The HCSC docket obtained from HCSC on 2 March 2020

A005 EXHIBIT 4's- Exhibit E, prior to the 9:30AM hearing, shows that Sundy’s
STANDING OBJECTION is nowhere to seen. The docket of 9 March 2020 A006
EXHIBIT 4's- Exhibit F shows that Sundy’s STANDING OBJECTION has now
been “docketed” but there is no filing order from the court nor anything to provide
evidence of the two week filing delay and the fact that Sundy’s objection was not
filed until after the 2 March 2020 hearing.
The systematic pattern and practice employed by HCSC Clerk Baker and other
HCSC court officers to deprive pro se Sundy of access to the court is only consistent in
its discrimination. Pro se Sundy never knows what qualifies him to have his papers
docketed because there is no legal standard uniformly applied to Sundy’s papers and
the pretext used by the court is different each time.

Sundy only knows that his

liberty is restrained and his papers will not be TIMELY docketed, if they are
docketed at all. Sundy also knows that the court will hold unconstitutional hearings
with the record incomplete, denying Sundy full access to the court as well as due
process of notice that Sundy’s papers will be withheld from the court record.

9

The facts suggest that the docketing of Sundy’s papers has nothing to do with
an objective determination of whether they should be filed in an existing case A002.
Instead, the actual prejudice of the Court is at issue, in violation of Sundy’s civil
rights, and the need of the court to “sanitize” the record so that Sundy cannot prevail
on appeal.
Sundy's refusal to acquiesce to court officers’ systematic pattern of bias,
tyrannical partiality, and violations of Sundy's rights of equal protection and full access
to the court has provoked the angst of the Court despite the fact that Sundy is simply
heeding the Court’s own instruction to litigants:
"[N]o matter how erroneous a ruling of a trial court might be, a litigant
cannot submit to a ruling or acquiesce in the holding, and then complain
of the same on appeal. He must stand his ground. Acquiescence deprives
him of the right to complain further." (Footnote omitted.) Roberts v. First
Ga. Community Bank, 335 Ga. App. 228, 230 (1) (779 SE2d 113) (2015).
See also Davis v. Phoebe Putney Health Systems, 280 Ga. App. 505, 506507 (1) (634 SE2d 452) (2006) ("A party cannot participate and acquiesce
in a trial court's procedure and then complain of it.")
This is an unpopular case which has raised an unpopular question — are court
officers who are derelict, violative or abusive of their duties, and conspiring in a
pattern to deprive pro se parties of constitutional protections while violating state
statutes, subject to a declaration of their constitutional responsibilities by a state or
federal court?

There is a second unpopular question - Can a “Property Owner’s

Affidavit,” filed into a state government entity under conditions of RICO by an affiliate
of a $5-billion-dollar corporation which possibly has retirement investment holdings of
state court officers, and denied review in the state court by those same state court

10

officers, be examined and reviewed by any court to address Sundy’s injury of being
deprived of private property without just compensation?
If the Attorney General of Georgia had protected the Sundys as is his primary
duty under the Constitution, this case might have ended long ago. Instead, in addition
to using their official capacity to exonerate each other from violations of State of Georgia
statutes, officers of the court have aided HCSC 2015CV1366 Plaintiff Friendship to
prevail in its scheme of prevention of performance, despite law to the contrary, whereby
Friendship concealed the material facts of road construction from the defendant Sundy
and filed a false affidavit in a Georgia government entity using the US mail (impheating
RICO), defrauding Sundy and his family of over $300,000. HCSC used its

VII. REASONS FOR GRANTING THE PETITION
A. Sundy is denied access to the court
Hall County Superior Court officers, as well as officers of the Georgia
Supreme Court and the Georgia Court of Appeals, have concealed court orders,
transcripts, Sundy’s papers, and other documents from the record in civil
proceedings, subjectively denying Sundy access to the courts. Court officers have
withheld Sundy’s procedurally-required objections, notices, etc. from the record
while holding hearings and making rulings upon an incomplete record, depriving
Sundy of equal protection and due process.

Instead of dealing with the statutory

violations and ethical violations committed by court officers and documented by
Sundy, the courts have retaliated by implementing a purely subjective filing
injunction against Sundy. As documented above, the court ignores the procedural
11

components of its own injunction, instead hanging a subjective Damoclean sword
over Sundy’s head whereby the court may delay filing Sundy’s documents or never
file Sundy’s documents.
There is causal link between the 2018 retaliatory filing injunction issued by
disqualified Judge Fuller and the behavior of judges and clerks, as well as
adversarial parties, to commit fraud upon the court by altering the court record
while depriving Sundy of the complete record necessary for appeal.
A complete record functions to ensure procedural due process on appeal.
U.S. u. Mancilla, 226 Fed. Appx. 945, 946 (11th Cir. 2007)
Sundy has not been informed of what he is called upon to do or to refrain from doing
in order to comply with the subjective and purposefully open-ended injunction.
Instead, the injunction has been wielded by the courts as an arbitrary weapon to
strip Sundy of a complete court record, depriving Sundy of procedural due process,
and further deny Sundy access to the court.
“Loss of First Amendment freedoms, for even minimal periods of time,
unquestionably constitutes irreparable injury.” Elrod v. Burns, 427 U.S.
347; 6 S. Ct 2673; 49 L. ed. 2d (1976);
The important facts in this litigation originally centered around a
dispossessory affidavit falsely sworn by HCSC Plaintiff Friendship in an in rem
proceeding, and Sundy’s claims of Friendship’s affirmative RICO activity and scheme
of prevention of performance, with Sundy seeking counter means for damages. Those
facts have been obscured by five years of collateral issues created by HCSC court officers
violating Georgia statutory laws, while systematically depriving Sundy of Constitutional
due process, equal protection and liberty interests.

12

Under the guise of the open-ended injunction, HCSC court officers have conspired
to block pro se Sundy from filing documents in existing case(s), restraining Sundy’s
liberty and depriving pro se Sundy of full access to the courts, while ensuring Sundy’s
court record in each case is defective. The trial court has estabhshed that it will ignore
aspects of the law that do not favor HSCS Plaintiff Friendship, including Friendship’s
actual default, and ignore Friendship et al.’s prevarications and misrepresentations on
the record with Sundy’s objections and other documents missing from the record.. The
courts have retaliated against Sundy’s demonstrated perseverance and zealous selfadvocacy by legally inconsistent rulings and conflicting instructions.
"if state officers conspire ... in such a way as to defeat or prejudice a
litigant's rights in state court, that would amount to a denial of equal
protection of the laws by persons acting under color of state law."
Dinwiddie v. Brown, 230 F.2d 465, 469 (5th Cir.), cert, denied, 351 U.S.
971, 76 S.Ct. 1041, 100 L.Ed. 1490 (1956).
The First Amendment “right of the people ... to petition the Government for a
redress of grievances,” which secures the right to access the courts, has been termed
“one of the most precious of the liberties safeguarded by the Bill of Rights.” BE & K
Const. Co. v. NLRB, 536 U.S. 516, 524—25, (2002) (internal quotation marks
omitted, alteration in original).

Restricting access to the courts is a serious

matter. “[T]he right of access to the courts is a fundamental right protected by the
Constitution.” Delew v. Wagner, 143 F.3d 1219, 1222 (9th Cir.1998). This Court has
placed the court access right in the Privileges and Immunities clause, the First
Amendment petition clause, the Fifth Amendment due process clause, and the
Fourteenth Amendment equal protection clause).

13

The actions of Georgia courts have impinged upon Sundy’s fundamental right
of access protected by the Constitution. Georgia courts have made no substantive
findings of frivolousness or harassment as regards Sundy but have abused their
power to empower the trial court to issue void orders upon an incomplete record and
deny Sundy equal protection and due process.

By burying the injunctive order in

HCSC 2016CV0982, the judges have conspired to ensure that Sundy can neither
appeal nor mitigate the injunction.
" Whether an access claim turns on a litigating opportunity yet to be
gained or an opportunity already lost, the very point of recognizing any
access claim is to provide some effective vindication for a separate and
distinct right to seek judicial relief for some wrong ....[MJeaningful
access to the courts is a right of constitutional significance."
Christopher v. Harbury, 536 U.S. 403, 415 (2002))
B.

Georgia Courts have nullified the efficacy of extraordinary writs
According to legal theory in the State of Georgia, Sundy prevailed in his

Mandamus case in Hall County Superior Court because -- although a mandamus was
never issued -- Sundy obtained the relief sought, i.e., Sundy’s 20 December 2016
document was finally restored to the court record in July 2018 by the clerk who
removed it. See Robinson v. Glass, 302 Ga. App. 742 (Ga. Ct. App. 2010). (“Moreover,
Glass “prevailed” because he obtained the relief sought, even though it was provided
without the necessity of a writ of mandamus from the trial court...”)
Sundy sought Mandamus relief in the 11th Circuit Court of Appeals to have
missing papers restored to the record of USDC 2:18-CV-0112 with the Court applying
RULE 302 F.R.E. which provides “In a civil case, state law governs the effect of a
presumption regarding a claim or defense for which state law supplies the rule of

14

decision.” As defined and consistent with Robinson v. Glass, Sundy again prevailed for
the relief sought - most missing documents were restored to the record— even though no
mandamus was issued.
Sundy also applied for injunctive relief in the Supreme Court of Georgia, asking
GASUP to “enjoin Clerks Castlen and Barnes from conspiring to not docket transferred
case S19D0838.” Consistent with Robinson v. Glass, Sundy again prevailed, obtaining
the relief sought even though no actual injunction issued and Respondents Friendship
et al. defaulted, admitting every allegation as though it were true. Less than 30 days
after Sundy filed his Verified Injunction in S1901351, case A20D0016 was docketed in
the Georgia Court of Appeals -- almost five months after the transfer order had been
issued. And, true to form, no court officer was publicly implicated.
From this pattern, Sundy has discovered how Georgia courts define “frivolous”
cases.

A “frivolous” case is when Sundy files a legally-sound action implicating court

officers, such as a Mandamus, and then there will be a phone call or under-the-table,
verbal order issued by the Court granting the relief sought while the court officers
escape any public guilt. The unwritten, undocketed order is often only given after
Sundy is forced to appeal, and during the pending appeal, so that when the violation is
cured, the Court and Respondents can then characterize both Sundy’s Mandamus and
the Appeal as “frivolous”.
Despite the obvious futility of appealing upon an incomplete record, pro se Sundy
may stand his ground and avail himself of the appellate process in order to correct
error, pursue valid legal claims and clearly justiciable issues of law or fact. Pro se
Sundy will support his claims with factual assertions as well as cogent legal
15

arguments, and citation to relevant legal authorities which other courts have
already accepted.

But the incomplete court records, and the appellate courts’

refusal to hold court officers culpable for statutory violations, ensures that Sundy
remains in the custody of court officers, denied full access to the courts and deprived of
the ability to fully present meritorious claims..
Rather than enforcing the efficacy of extraordinary remedies, remedies forced
upon a litigant when a court fails to perform a clear legal duty, Georgia’s courts
actually participate in and help to circumvent what the public perceives as the sedition
of court officers. Georgia’s appellate courts directly, or indirectly, unnecessarily expand
proceedings by forcing litigants to expend costs and time as a direct result of the court’s
own failure to follow the law.
C. Petitioner has no “plain, speedy and efficient” remedy to officers of the
Georgia courts tampering with the court record,
Petitioner Sundy’s resort to state court remedies has failed to produce a full
and fair adjudication of Sundy’s federal contentions, including his right to be secure
in his papers, equal protection and consistent due process.
When the Georgia Court of Appeals (“GCOA”), imputed as the State of Georgia,
issued an order in A18E0011 denying Sundy’s Emergency Motion for Process to be
issued in HCSC 2017CV1125 and then,, sua sponte, also issued the ORDER in
independent, non-consolidated cases HCSC 2015CV1366, 2016CV0982, 2018CV502A
contrary to GCOA’s own stated rules and case law, the GCOA was affirmative of its
direct intention to not correct any act involving criminal activity, undue interference or
tampering by a court officer.

16

As long as the order in GCOA A19E0011 has not been set aside and is in full
force and effect, there is no sufficient, adequate, effective, and “meaningful" appeal that
can derive from a record that has been tampered with by court officers and is
incomplete because of removed documents.
GCOA’s objective is to ensure the official record to be incomplete and lacking
the documentary evidence of court officers’ abuse of the legal process, (see case 185506 in this court as Judicial Notice). The GCOA has affirmatively acted to effectively
deprive Sundy of any meaningful remedy in Georgia’s lower courts to Sundy’s claims
of denial of access, due process and equal protection.
The pro se Petitioner has sought relief below in multiple forms in State and
Federal courts from the malfeasance, malpractice and/or bad behaviour which
precipitates prejudice to Petitioner’s Fourth Amendment right to be secure in his
papers as well as his First Amendment right of access to the court. Sundy has been
purposefully denied a written order in the nature of an extraordinary remedy in
Sundy's favor by every court, while court officers collude to ensure that the
malfeasance of court officers can evade judicial review, utilizing phone calls, ex parte
and under-the-table orders to correct and restore missing portions of the record so as
to render Sundy’s valid legal claims as moot. Sundy is denied an adequate appeal
since the record in every case is incomplete. Without this Court’s intervention,
Sundy and other pro se litigants in Georgia, will be subjected to the same actions
again and again, and the two-tiered system of justice which allows court officers to
commit crimes and avoid punishment will remain in place.

17

"It may be that it is the obnoxious thing in its mildest and least
repulsive form; but illegitimate and unconstitutional practices get
their first footing in that way, namely, by silent approaches and slight
deviations from legal modes of procedure. This can only be obviated by
adhering to the rule that constitutional provisions for the security of
person and property should be liberally construed. A close and literal
construction deprives them of half their efficacy, and leads to gradual
depreciation of the right, as if it consisted more in sound than in
substance. It is the duty of courts to be watchful for the constitutional
rights of the citizen, and against any stealthy encroachments thereon."
Boyd v. United States, 116 U.S. 616, 635 (1886)
“We have long appreciated that more “searching” judicial review may
be justified when the rights of “discrete and insular minorities”—
groups that may face systematic barriers in the political system—are
at stake. United States v. Carotene Products Co., 304 U.S. 144, 153,
n.4, 58 S.Ct. 778, 82 L.Ed. 1234 (1938)
Georgia appellate courts have consistently demonstrated over the past five
years that pro se Sundy will not be afforded enforcement of his constitutional rights
under the First, Fourth, and Fourteenth Amendments and that the pattern and
practice of Atlanta-area courts maintaining court records with substantial and
significant omissions and material falsities is not a matter of public concern in
Georgia.

This has been Sundy’s experience since the day he obtained partial

disclosure of Respondent Friendship Pavilion Acquisition Company’s scheme of
prevention of performance, RICO activity, and false affidavit filed in a government
entity stating that Friendship had no tenants despite having signed a lease with
Sundy’s family-owned company almost two months prior.
“Of what avail is it to the individual to arm him with a vesture of
constitutional rights if, when he seeks to vindicate them, the courtroom
door can be hermetically sealed against him by a functionary who, by
refusal or neglect, impedes the filing of his papers?” McCray v. State of
Maryland, 456 F.2d 1, 6 (4th Cir. 1972)

18

The pattern of inconsistent due process established by HCSC, withholding or
removing Sundy’s papers from court record and then making improper factual
determinations and conclusory findings with evidence and argument missing from
the record, establishes more than just deprivations under the Fourth and Fourteenth
Amendments.

Sundy is required by HCSC to participate in a hearing upon an

incomplete record and adverse parties are never required to file a written response or
opposition to Sundy's missing papers.
The adversarial nature of civil proceedings has been skewed by HCSC court
officers in favor of billion-dollar-corporate-subsidiary Respondent Friendship.
Georgia appellate courts have demonstrated that they are more interested in
protecting court officers from Sundy’s viable claims of misfeasance, malfeasance and
dereliction of duty than in protecting and upholding Sundy’s constitutional rights.
Litigants proceeding pro se are already at a disadvantage in the unfamiliar
world of law because they lack the specialized training of attorneys. Jourdan v.
Jabe, 951 F.2d 108, 110 (6th Cir. 1991).

When Sundy’s papers and documents

supporting material facts are removed and/or hidden from the record, so that Sundy
is procedurally and/or substantively disadvantaged in the defense or prosecution of
a cause of action, the disadvantage is elevated to a deprivation of rights under color
of law. 18 U.S.C. § 242.
As Sundy has argued steadily in every action catalogued in the List of All
Proceedings, he is injured by an incomplete record and subject to inconsistent due
process and a denial of equal protection. On one hand, the ORDER showing how
Sundy’s 2015 JOINT OBJECTION was restored to the record of HCSC 2015CV1366
19

is missing from the record. On the other hand, the hand written ORDER A004 to
showing how Sundy’s 2018 OBJECTION was restored to the record is present. On
one hand, the injunctive Order by disqualified judge Fuller A002 is absent from the
record of 2015CV1366 yet the Georgia Court of Appeals, sua sponte and without
jurisdiction, filed its A19E0011 controlling order into the record of 2015CV1366. The
incomplete record in 2015CV1366 cannot support all of Sundy’s claims on appeal, and
the court and its officers continue to create gaping holes in the record to harm
Sundy’s appeal while subjecting Sundy to inconsistent due process.
“Consistent with federal authority, we now hold that a judgment is void
if the court which rendered it acted in a manner materially inconsistent
with due process.” Johnson v. Mayor c. of Carrollton, 249 Ga. 173 (Ga.
1982)
To have a “plain, speedy and efficient” remedy it is conclusive there must a
complete record. The relief sought by Sundy from this Court is not available in any
other court in the state of Georgia. Trial court officers collude to willfully falsify,
destroy, remove, conceal and alter Sundy’s pleadings as well as other parts of the
court records. Respondent Clerk Baker has previously certified a record on appeal as
true and complete while knowing the record was incomplete and therefore false. The
Georgia Supreme Court and the Georgia Court of Appeals have tampered with Sundy’s
appeals by re-docketing documents a second time with a new filing date to create fake
motions, creating a fake petition for certiorari from a discretionary application for
appeal, delaying transfer of an appeal for months to allow more chicanery in the trial
court, etc. No reasonable person can conclude Sundy has a remedy anywhere but in
this Court, or a congressional appeal.
20

“Not only is a biased decision maker constitutionally unacceptable, but our
system of law has always endeavored to prevent even the probability of
unfairness.” Withrow v. Larkin, 421 U.S. 35, 47 (1975) (quoting In re
Murchison, 349 U.S. 133, 136 (1955))
“...it is still the ultimate responsibility of the court to consider all
potential remedies if it finds that the ones the plaintiffs offer do not
suffice. It has always been Congress's intent that "[t]he court should
exercise its traditional equitable powers to fashion the relief so that it
completely remedies...” Southern Christian Leadership Conference v.
Sessions, 56 F.3d 1281 (11th Cir. 1995).
VIII. SUMMARY OF ARGUMENTS
Petitioner Sundy is seeking a writ of certiorari as a remedy for an
extraordinary situation. Petitioner Sundy has spent more than five years in the
state superior court fighting to obtain a complete record while judges and court
officers conspire to ensure that the record is incomplete, removing properly-filed
papers from the record(s) of the superior court cases in which Sundy is a party.
Sundy views the practice of Georgia courts to cause reciprocal nullification of
any extraordinary remedies, while denying Sundy any order that documents the
malfeasance/misfeasance of court officers, is corrupt.

When an extraordinary

remedy is filed by Sundy seeking to restore a missing document, the missing
document may be restored without an order on the record, however, an official (such
as Respondent Clerk Baker) will then cause another document to come up missing.
The restored document moots the issue raised in the formal extraordinary remedy,
but the document subsequently removed means the record is still incomplete. Then
Sundy must file another extraordinary petition seeking remedy or to have the
subsequent missing document restored. The record in State court always maintains
an incomplete status, as Sundy has experienced for the past five years. For Sundy
21

and the other citizens of Georgia, there is nothing plain, speedy or efficient about
justice.
When Sundy requested this Court on May 10, 2020 in pending case 19-8492
to issue an order in the nature of a prohibition (“extraordinary remedy”), to prohibit
any ruling on Sundy's OCGA § 9-ll-60(d)(2)(3) post proceeding Motion while the
record in Hall County Superior Court case 2015CV1366, the trial court swung into
action. Despite Sundy’s motion having been in limbo for 17 months since it was
filed on 13 December 2018, the trial court made a determination of post proceedings
upon an incomplete record on June 3, 2020. True to pattern, the issue in case 198492 was caused to become moot yet Sundy’s claims of denial of due process, equal
protection and First and Fourth Amendment protections were ignored and the
record is still incomplete.
Sundy initiated USDC No. 2:18-cv-0112-SCJ (now pending in this Court as
20-5401), in part, to obtain declaratory relief regarding the constitutional violations
and deprivations committed by court officers in the state court. However, the same
due process irregularities and violations occurred in the record of the U.S. District
Court with docket items missing, including a motion properly-filed by Sundy on 17
December 2018.
Moreover, the constitutional protections which Sundy sought to vindicate
were violated by the very court in the State of Georgia from which Sundy sought
protection, prejudicing Sundy’s efforts to enforce his legal rights.

(With the

Gainesville Division district court physically located directly across the street from
Hall County Superior Court and employees/court officers of both courts fraternizing
22

with regularity, and with irregularities appearing on the federal record which directly
mirrored the violations in Hall County Superior Court, Sundy still doesn’t know if they
collaborated or if they train each other.)
Under circumstances where the integrity of the adjudicative processes of the
state courts are suspect, Sundy is effectively excluded from the court and no appeal at
a later date can correct that prejudice. This Court has explained that "post judgment
appeals generally suffice to protect the rights of litigants..." Mohawk Indus., Inc. v.
Carpenter, 558 U.S. 100. 109 (2009).

Such is not the case for Sundy because the

incomplete record cannot support Sundy’s issues on appeal.
Petitioner Sundy has been denied equal protection and deprived of access to
the court, contrary to the First and Fourteenth Amendments of the Constitution, by
court officers refusing to file properly submitted documents into a civil action and/or
removing and/or withholding properly submitted documents from a civil action.
Despite OCGA § 9-6-22: Sundy has been denied the right of a complete record on
appeal by Respondent Baker’s failure to perform the Clerk’s duties.
If any sheriff, clerk, or other officer fails to discharge any duty required of
him by any provision of Title 5.... No party shall lose any right by reason
of the failure of the officer to discharge his duties when the party has been
guilty of no fault himself and has exercised ordinary diligence to secure
the discharge of such duties. OCGA § 9-6-22
Sundy has been injured and continues to be injured and is without remedy in
Georgia.
“...the City overlooks the fact that the loss of a procedural right "is
itself an injury" sufficient to provide standing "without any
requirement of a showing of further injury." Bertulli v. Independent
Ass'n of Continental Pilots, 242 F.3d 290. 295 (5th Cir. 2001).
Additionally, "the right to procedural due process is 'absolute' in the
23

sense that it does not depend upon the merits of a claimant's
substantive assertions and [therefore] the denial of procedural due
process [is] actionable for nominal damages without proof of actual
injury." Carey u. Piphus, 435 U.S. 247, 266, 98 S.Ct. 1042, 55 L.Ed.2d
252 (1978). Wessel u. City of Albuquerque, 299 F.3d 1186, 1193 (10th
Cir. 2002)
When facts are missing from the record or in dispute, how can full and fair
consideration be given?

Does the standard of Mincey u. Head, 206 F.3d 1106, 1125

(11th Cir. 2000) apply in the state court? (“For a claim to be fully and fairly
considered by the state courts, where there are facts in dispute, full and fair
consideration requires consideration by the fact-finding court...”)
Pro se Sundy’s attempt to maintain the status quo, i.e., obtain a complete court
record, is an uphill battle against court officers who have the power to manipulate the
outcome of HCSC 2015CV1366 and every other case.

The legally unsophisticated

Sundy is placed in the unconstitutional condition of having to acquiesce to the corrupt
and incomplete court record or abandon any meaningful appeal. Regardless of how
Sundy might attempt to debate with the courts about missing documents, a challenged
factual issue based upon the record, Sundy is unable to combat the abuse of power by
biased court officials.
It is a manifest injustice that Sundy has no remedy to prohibit Respondent
Baker and other court officers from tampering with the record of any of Sundy's
cases, including removing Sundy’s papers and withholding items from the docket, to
deprive Sundy of Notice and equal protection as well as the full and fair litigation of
issues and claims.

24

It is a manifest injustice that Sundy has no remedy to prohibit Respondent
court officers from delaying filing and/or backdating or changing the stamp-filed date
on documents.
It is a manifest injustice that GASUP Clerk of Court Therese Barnes can, in
S1901351, falsify court records and acti intentionally and with premeditation to
prejudice Sundy’s claims and appeal(s). By Judicial Notice, Clerk Barnes created a
false motion for sanctions in S1901351 to injure Sundy while denying Sundy Notice
once she had filed the fake motion in the record.
“The right of access to the courts, upon which Avery [Johnson v. Avery,
393 U.S. 483, 89 S.Ct. 747, 21 L.Ed.2d 718 (1969)] was premised, is
founded in the Due Process Clause and assures that no person will be
denied the opportunity to present to the judiciary allegations concerning
violations of fundamental constitutional rights.” Wolff v. McDonnell, 418
U.S. 539, 94 S.Ct. 2963, 41 L.Ed.2d 935 (1974)
Respondent Friendship Pavilion Acquisition Company LLC (“Friendship”)
and its officers and agents took a calculated risk in 2011 that it could successfully
perpetrate a scheme of prevention of performance and fraud upon Petitioner Sundy,
his brother, and their family-owned restaurant company. Friendship et al. knew
that what it was doing was deceitful, fraudulent and illegal, and could cost the
Sundys’ their livelihood, but calculated that imposing obstacles upon the Sundys’
restaurant of condemnation, road construction and the secret conveyance of its
property frontage

- obstacles not contemplated within its contract with the

Sundys-was a risk FPAC was willing to take.

When Friendship’s calculation

proved wrong and the Sundys also obtained documentary evidence of Friendship’s

25

scheme and breaches of contract, Friendship hired multiple attorneys and sought to
avail itself of the Sundys’ nonperformance.
Since then, for still unknown reasons, court officers in the Northeastern
Judicial Circuit of Georgia have demonstrated an actual interest in the outcome of
the original in rem proceeding, even at one point adopting HCSC Plaintiff
Friendship’s MOTION TO LIFT LlS PENDENS in court officers’ mandamus response.
CONCLUSION
Sundy has been in custody for five years with his rights and liberties denied and/or
restrained. Friendship and HCSC court officers, including judges and clerks, have
given every appearance of conspiring to shield Friendship from the consequences of
Friendship’s own scheme and allow HSCS Plaintiff Friendship to prevail with
unclean hands.
Pro se Sundy is ignorant of the nuances of the law. Pro se Sundy, however
inarticulate, is a literalist who believes that if the law states that judge must rule
on a motion in 90 days (OCGA 15-6-21(b)), or the docket is to be consecutively
numbered (FRCP 79), or as in Wolff v. McDonnell, when it states the assurance "...
that no person will be denied the opportunity to present to the judiciary allegations
concerning violations of fundamental constitutional rights”,

then that is what is

supposed to happen. Either the law is applied to every one or the law is applied to no
one.
In observing the List of All Proceedings, none of the pending cases present a
remedy as a matter of right. Despite the fact that Sundy has at least three more
potential petitions to be filed in this court, the State of Georgia has clearly
26

demonstrated that is not going to allow or afford Sundy a complete court record.
Therefore, a writ of certiorari should be granted.
Timely and respectfully submitted, 26 August 2020.

Tim Sundy
227 Sandy Springs Place, Ste. D-465
Sandy Springs, GA 30328
404-409-5473

27

